No.
IN THE
SUPREME COURT FOR THE UNITED STATES

October Term, 2020

JOHN JOSEPH BARRERA,
Petitioner,
vs.
JESSICA NEWSOME, at. al.,
Respondents.

PETITIONER’S APPENDIX

Submitted by:
John Joseph Barrera, #160094
In Propria Persona
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

Dated: November20,2020

RECEIVED
DEC 1 1 2QK>

APPENDIX
INDEX

Appendix Kntrv:

T~>f^f;oription of Entry:

Page Entry:

Appendix-A

US Court of Appeals 6th. Circuit's
Opinion and Order denying Relief.

1a to 5a

Appendix-B

US District Court's Opinion and
Order denying Reconsideration

6a to 7a

Appendix-C

US District Court's Order dismissing
The 1983 Complaint......................

8a to 16a

Appendix-D

Petitioner's Pro. Se. 42 USC § 1983
Complaint and Jury Demand ..... .

17a to 23a

-0-

(2 of 6)

NOT RECOMMENDED FOR PUBLICATION
No. 20-1270
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
JOHN JOSEPH BARRERA,

FILED

Sep 14, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)

Plaintiff-Appellant,
v.
[UNKNOWN] NEWSOME, Food Service
Supervisor; [UNKNOWN] BRAND, Corrections
Sergeant; MARGARET A. OUELLETTE,
Physician Assistant,
Defendants-Appellees.

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

)
)
)
)

ORDER
Before: ROGERS, NALBANDIAN, and MURPHY, Circuit Judges.
John Joseph Barrera, a pro se Michigan prisoner, appeals the district court’s judgment
dismissing his 42 U.S.C. § 1983 civil rights action for failure to state a claim upon which relief
may be granted, pursuant to 28 U.S.C. §§ 1915(e)(2) and 1915A(b) and 42 U.S.C. § 1997e(c).
This case has been referred to a panel of the court that, upon examination, unanimously agrees that
oral argument is not needed. See Fed. R. App. P. 34(a).
Barrera filed this action in 2019 against (Unknown) Newsome, (Unknown) Brand, and M.
Ouellette, all of whom are employees at the Lakeland Correctional Facility, where Barrera is
incarcerated.
According to Barrera, on May 30, 2019, he entered the “Early Diet Line Chow,” a food
service area that serves elderly prisoners and those with medical issues, such as Barrera. An inmate

IS

(3 of 6)

No. 20-1270
-2-

(“the alleged assailant”) working in the food service line allegedly became “very hostile” toward
and started arguing with and threatening Barrera.
After Barrera finished his meal, the alleged assailant purportedly hit him in the back of his
head as he was exiting the food service area; Barrera claims that this hit rendered him unconscious
for approximately one minute. Barrera claims that Newsome was in charge of the food service
line, heard the alleged assailant threaten him, and did nothing to stop the assault. Barrera also
claims that Brand was the custody supervisor on duty at the time of this incident, heard the alleged
threats, and failed to intervene.
Barrera alleges that he was taken to medical and then to an outside hospital, where it was
determined that he had a “lump and swelling” on the back of his head.
According to Barrera, he requested additional medical treatment for his head injuries on
May 31, 2019, June 5, 2019, and June 11,2019, all of which Ouellette denied.
Barrera alleges that he was finally sent to an outside hospital on August 6, 2019, where a
CT scan was conducted. He also purportedly received an EKG on October 3, 2019, and alleges
that he was given pain medication that day.
Allegedly, Barrera complained to Ouellette that his pain medication was insufficient, and
Ouellette purportedly refused to send Barrera for an MRI and increased the dosage of his pain
medication, “knowing that [he has] a bad liver disorder.”
Based on the foregoing facts, Barrera claims that the defendants failed to protect him from
other inmates and deprived him of adequate medical treatment, in violation of the Eighth
Amendment.
The district court dismissed Barrera’s complaint, reasoning that Barrera failed to state an
Eighth Amendment claim against any of the defendants.
Barrera then filed a motion for reconsideration pursuant to Rule 59(e), which the district
court denied. Barrera now appeals the denial of his Rule 59(e) motion. “[A]s a general matter,
the appeal from the denial of a Rule 59(e) motion is treated as an appeal from the underlying

M

(4 of 6)
No. 20-1270
-3judgment itself.” Bonner v. Metro. Life Ins., 621 F.3d 530, 532 (6th Cir. 2010) (quoting GenCorp,
Inc. v. Am. Int’l Underwriters, 178 F.3d 804, 833 (6th Cir. 1999))
Standard of Review
We review de novo the dismissal of a complaint under 28 U.S.C. §§ 1915(e) and 1915A
and 42 U.S.C. § 1997e(c). Flanory v. Bonn, 604 F.3d 249, 252 (6th Cir. 2010). To survive
dismissal under these statutes, “a complaint must contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on its face.” Hill v. Lappin, 630 F.3d 468, 471 (6th
Cir. 2010) (quoting Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)).
Eighth Amendment Claim
The Eighth Amendment protects inmates by requiring prison officials to take reasonable
measures to guarantee inmates’ safety. Mingus v. Butler, 591 F.3d 474, 479 (6th Cir. 2010).
“[T]he elements of an Eighth Amendment violation have both objective and subjective
components.” Id. at 479-80. “First, the failure to protect from risk of harm must be objectively
sufficiently serious.” Id. at 480 (quoting Harrison v. Ash, 539 F.3d 510, 518 (6th Cir. 2008)).
Second, the inmate must show that the official acted with deliberate indifference by knowing of
and disregarding an excessive risk to inmate health or safety. Id.
Defendants Brand and Newsome
The district court properly concluded that Barrera failed to state an Eighth Amendment
claim against Brand or Newsome. Even if Barrera’s allegations that Brand and Newsome heard
the alleged assailant yelling at Barrera, as he claims, these allegations fail to show that Brand and
Newsome knew of and disregarded an excessive risk to Barrera’s health and safety. Mingus, 591
F.3d at 480. Indeed, Barrera alleges that, after the alleged assailant yelled at and threatened him,
he was able to sit down and begin to eat his meal. It was only after Barrera attempted to leave the
food service area that the alleged assailant abruptly ran after and assaulted Barrera—an altercation
that apparently neither Brand nor Newsome anticipated. Based on these allegations, dismissal of
Barrera’s Eighth Amendment claims against these defendants was proper.

3/7

(5 of 6)
No. 20-1270

-4Defendant Ouellette
The district court also properly determined that Barrera failed to state an Eighth
Amendment claim against Ouellette. “[W]here a prisoner has received some medical attention and
the dispute is over the adequacy of the treatment, federal courts are generally reluctant to second
guess medical judgments and to constitutionalize claims that sound in state tort law.” Graham ex
rel. Estate of Graham v. County of Washtenaw, 358 F.3d 377, 385 (6th Cir. 2004) (quoting
Westlake v. Lucas, 537 F.2d 857, 860 n.5 (6th Cir. 1976)).
That is precisely the case here. Barrera alleges that, on the day that he was struck by the
alleged assailant, he was taken to medical and thereafter taken to an outside hospital. He further
alleges that he received a CT scan, an EKG, and pain medication for his head injury (which he
claims was insufficient).
These allegations fail to state a plausible claim that Ouellette violated Barrera’s Eighth
Amendment rights. Rather, these allegations, at most, state a claim of mere negligence—i.e., that
Ouellette failed to respond appropriately to Barrera’s injury and failed to provide him adequate
medical care. But allegations of negligence or medical malpractice are insufficient to state an
Eighth Amendment violation. See, e.g., Durham v. Nu’Man, 97 F.3d 862, 868 (6th Cir. 1996)
(noting that the Supreme Court has held that “an inadvertent failure to provide adequate medical
care cannot be said to constitute ‘an unnecessary and wanton infliction of pain’ or to be ‘repugnant
to the conscience of mankind’” for purposes of the Eighth Amendment and that “negligence or
‘medical malpractice’ alone is insufficient to establish liability” (quoting Estelle v. Gamble, 429
U.S. 97, 105-06(1976)).
To the extent that Barrera challenges Ouellette’s failure to timely treat him, such a claim
could arguably be construed as alleging a delay in treatment and would then come under “a
separate branch of Eighth Amendment decisions.” Blackmore v. Kalamazoo County, 390 F.3d
890, 897 (6th Cir. 2004); see also Morabito v. Holmes, 628 F. App’x 353, 358 (6th Cir. 2015). To
establish such a delay-in-treatment claim, an inmate “must place verifying medical evidence in the
record to establish the detrimental effect of the delay in medical treatment.” Napier v. Madison

(6 of 6)
No. 20-1270
-5County, 238 F.3d 739, 742 (6th Cir. 2001) (quoting Hill v. Dekalb Reg’l Youth Det. Ctr., 40 F.3d
1176, 1188 (11th Cir. 1994), overruled in part on other grounds by Hope v. Pelzer, 536 U.S. 730
(2002)); see also Love v. Taft, 30 F. App’x 336,337-38 (6th Cir. 2002) (order) (applying the Napier
standard to an appeal from a § 1915A(b) dismissal). A detrimental effect is an “injury, loss, or
handicap.” Blackmore, 390 F.3d at 897. Because Barrera failed to allege facts showing that the
delay caused his condition to deteriorate, his claim would also fail under this standard.
Leave to Amend Complaint
Finally, Barrera argues that the district court erred by not allowing him to amend his
complaint. But Barrera did not move for leave to amend his complaint or submit a proposed
amended complaint. In these Circumstances, “it was impossible for the district court to determine
whether leave to amend should [be] granted.” Spadafore v. Gardner, 330 F.3d 849, 853 (6th Cir.
2003); see also United States ex rel. Harper v. Muskingum Watershed Conservancy Dist., 739
F. App’x 330, 335 (6th Cir. 2018) (“[A] district court does not abuse its discretion by failing to
grant leave to amend where the plaintiff has not sought leave and offers no basis for any proposed
amendment.”).
Accordingly, we AFFIRM the district court’s judgment.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

5W

Case l:19-cv-00961-PLM-PJG ECF No. 7 filed 02/21/20 PagelD.49 Page 1 of 2

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

John Joseph Barrera,
Case No. l:19-cv-961
Plaintiff,
Honorable Paul L. Maloney
v.

Unknown Newsome et al.,
Defendants.

ORDER
This is a civil rights action brought by a state prisoner under 42 U.S.C. § 1983. On
January 14, 2020, the Court issued an opinion and order (ECF Nos. 4 and 5) dismissing Plaintiffs
complaint for failure to state a claim upon which relief can be granted. This matter is presently
before the Court on Plaintiffs motion for reconsideration or to amend judgment (ECF No. 6).
In the opinion dismissing Plaintiffs complaint, the Court held that Plaintiffs
Eighth Amendment claims against Defendants Newsome and Brand lacked merit because he failed
to allege facts showing that they failed to protect him from a known serious risk of attack. The
Court also dismissed Plaintiffs Eighth Amendment denial of medical care claim against
Defendant Ouellette because the facts as alleged by Plaintiff did not show that his treatment was
“so woefully inadequate as to amount to no treatment at all.” Alspaugh v. McConnell, 643 F.3d
162, 169 (6th Cir. 2011).
In Plaintiffs motion, he contends that the Court should not have dismissed his
complaint for failure to state a claim on initial screening. Plaintiff is incorrect. As noted in the
January 14, 2020, opinion, the Court is required to dismiss any prisoner action brought under

U

Case l:19-cv-00961-PLM-PJG ECF No. 7 filed 02/21/20 PagelD.50 Page 2 of 2

federal law if the complaint is frivolous, malicious, fails to state a claim upon which relief can be
granted, or seeks monetary relief. 28U.S.C. §§ 1915(e)(2), 1915A;42U.S.C. § 1997e(c). Reading
Plaintiffs pro se complaint indulgently and accepting Plaintiffs allegations as true, the Court
properly concluded that the facts as asserted by Plaintiff do not rise to the level of an Eighth
Amendment violation. Because Plaintiffs complaint fails to allege facts showing a violation of
his constitutional rights, his motion will be denied.
IT IS HEREBY ORDERED that Plaintiffs motion for reconsideration or to
amend judgment (ECF No. 6) is DENIED.

Dated:

/s/ Paul L. Maloney
Paul L. Maloney
United States District Judge

February 21, 2020

2

Case l:19-cv-00961-PLM-PJG

ECF No. 4 filed 01/14/20 PagelD.29 Page 1 of 9

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

John Joseph Barrera,
Plaintiff,
■v.

Case No. l:19-cv-961
Honorable Paul L. Maloney

Unknown Newsome et ai.,
Defendants.

OPINION
This is a civil rights action brought by a state prisoner under 42 U.S.C. § 1983.
Under the Prison Litigation Reform Act, Pub. L. No. 104-134, 110 Stat. 1321 (1996) (PLRA), the
Court is required to dismiss any prisoner action brought under federal law if the complaint is
frivolous, malicious, fails to state a claim upon which relief can be granted, or seeks monetary
relief from a defendant immune from such relief. 28 U.S.C. §§ 1915(e)(2), 1915A; 42 U.S.C.
§ 1997e(c). The Court must read Plaintiffs pro se complaint indulgently, see Haines v. Kerner,
404 U.S. 519, 520 (1972), and accept Plaintiffs allegations as true, unless they are clearly
irrational or wholly incredible. Denton v. Hernandez, 504 U.S. 25, 33 (1992). Applying these
standards, the Court will dismiss Plaintiffs complaint for failure to state a claim.
Discussion
I.

Factual allegations
Plaintiff is presently incarcerated with the Michigan Department of Corrections

(MDOC) at the Lakeland Correctional Facility (LCF) in Coldwater, Branch County, Michigan.

Eft

Case l:19-cv-00961-PLM-PJG ECF No. 4 filed 01/14/20 PagelD.31 Page 3 of 9

Plaintiff was sixty-seven years old and had a liver disorder. Defendant Ouellette told Plaintiff that
she would not waste taxpayer’s money by sending Plaintiff for an MRL Plaintiff filed'grievances
regarding the failure to protect and the denial of medical treatment, but his grievances were rejected
at each step.
Plaintiff states that Defendants violated his rights under the Eighth Amendment.
Plaintiff seeks compensatory and punitive damages, as well, as equitable relief.
II.

Failure to state a claim
A complaint may be dismissed for failure to state a claim if it fails ‘“to give the

defendant fair notice of what the ... claim is and the grounds upon which it rests.’” BellAtl. Corp.
v. Twombly, 550 U.S. 544, 555 (2007) (quoting Conley v. Gibson, 355 U.S. 41,47 (1957)). While
a complaint need not contain detailed factual allegations, a plaintiffs allegations must include
more than labels and conclusions. Twombly, 550 U.S. at 555; Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (“Threadbare recitals of the elements of a cause of action, supported by mere conclusory
statements, do not suffice.”). The court must determine whether the complaint contains “enough
facts to state a claim to relief that is plausible on its face.” Twombly, 550 U.S. at 570. “A claim
has facial plausibility when the plaintiff pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at
679. Although the plausibility standard is not equivalent to a ‘“probability requirement,’ ... it
asks for more than a sheer possibility that a defendant has acted unlawfully.” Iqbal, 556 U.S. at
678 (quoting Twombly, 550 U.S. at 556). “[Wjhere the well-pleaded facts do not permit the court
to infer more than the mere possibility of misconduct, the complaint has alleged—but it has not
‘show[n]’—that the pleader is entitled to relief.” Iqbal, 556 U.S. at 679 (quoting Fed. R. Civ. P.
8(a)(2)); see also Hill v. Lappin, 630 F.3d 468, 470-71 (6th Cir. 2010) (holding that the

3

Case l:19-cv-00961-PLM-PJG

ECF No. 4 filed 01/14/20

PagelD.33 Page 5 of 9

In order for a prisoner to prevail on an Eighth Amendment claim, he must show
that he faced a sufficiently serious risk to his health or safety and that the defendant official acted
with ‘“deliberate indifference’ to [his] health or safety.” Mingus v. Butler, 591 F.3d 474, 479-80
(6th Cir. 2010) (citing Farmer v. Brennan, 511 U.S. 825, 834 (1994) (applying deliberate
indifference standard to medical claims)); see also Helling v. McKinney, 509 U.S. 25, 35 (1993)
(applying deliberate indifference standard to conditions of confinement claims)).
Inmates have a constitutionally protected right to personal safety grounded in the
Eighth Amendment. Farmer, 511 U.S. at 833. Thus, prison staff are obliged “to take reasonable
measures to guarantee the safety of the inmates” in their care. Hudson v. Palmer, 468 U.S. 517,
526-27 (1984). To establish a violation of this right, Plaintiff must show that Defendant was
deliberately indifferent to the Plaintiff s risk of injury. Walker v. Norris, 917 F.2d 1449, 1453 (6th
Cir. 1990); McGhee v. Foltz, 852 F.2d 876, 880-81 (6th Cir. 1988). While a prisoner does not
need to prove that he has been the victim of an actual attack to bring a personal safety claim, he
must at least establish that he reasonably fears such an attack. Thompson v. Cty. of Medina, 29
F.3d 238, 242-43 (6th Cir. 1994) (holding that plaintiff has the minimal burden of “showing a
sufficient inferential connection” between the alleged violation and inmate violence to “justify a
reasonable fear for personal safety.”)
Plaintiff states that Defendants Newsome and Brand heard Plaintiffs attacker
arguing loudly with Plaintiff while he was in the chow line, and that they failed to intervene before
Plaintiff was assaulted. However, the fact that a prisoner was yelling at Plaintiff, without more,
does not indicate that Plaintiff at serious risk of being physically attacked. Plaintiff alleges that
after he got his tray, he sat at a table and began eating. Plaintiff was not actually assaulted until
he attempted to leave the chow hall. After reviewing the complaint, the Court concludes that

5

Case l:19-cv-00961-PLM-PJG

ECF No. 4 filed 01/14/20 PagelD.35 Page 7 of 9

Not every claim by a prisoner that he has received inadequate medical treatment
states a violation of the Eighth Amendment. Estelle, 429 U.S. at 105. As the Supreme Court
explained:
[A]n inadvertent failure to provide adequate medical care cannot be said to
constitute an unnecessary and wanton infliction of pain or to be repugnant to the
conscience of mankind. Thus, a complaint that a physician has been negligent in
diagnosing.or treating a medical condition does hot state a valid claim of medical
mistreatment under the Eighth Amendment, Medical malpractice does not become
a constitutional violation merely because the victim is a prisoner. In order to state
a cognizable claim, a prisoner must allege acts or omissions sufficiently harmful to
evidence deliberate indifference to serious medical needs.
Id. at 105-06 (quotations omitted). Thus, differences in judgment between an inmate and prison
medical personnel regarding the appropriate medical diagnoses or treatment are not enough to state
a deliberate indifference claim. Sanderfer v. Nichols, 62 F.3d 151, 154-55 (6th Cir. 1995); Ward
v. Smith, No. 95-6666, 1996 WL 627724, at *1 (6th Cir. Oct. 29, 1996). This is so even if the
misdiagnosis results in an inadequate course of treatment and considerable suffering. Gabehart v.
Chapleau, No. 96-5050, 1997 WL 160322, at *2 (6th Cir. Apr. 4, 1997).
The Sixth Circuit distinguishes “between cases where the complaint alleges a
complete denial of medical care and those cases where the claim is that a prisoner received
inadequate medical treatment.” Westlake v. Lucas, 537 F.2d 857, 860 n.5 (6th Cir. 1976). If “a
prisoner has received some medical attention and the dispute is over the adequacy of the treatment,
federal courts are generally reluctant to second guess medical judgments and to constitutionalize
claims which sound in state tort law.” Id.; see also Rouster v. Saginaw Cty;, 749 F.3d 437, 448
(6th Cir. 2014); Perez v. Oakland Cty., 466 F.3d 416, 434 (6th Cir. 2006); Kellerman v. Simpson,
258 F. App’x 720, 727 (6th Cir. 2007); McFarland v. Austin, 196 F. App’x 410 (6th Cir. 2006);
Edmonds v. Horton, 113 F. App’x 62, 65 (6th Cir. 2004); Brock v. Crall, 8 F. App’x 439, 440 (6th
Cir. 2001); Berryman v. Rieger, 150 F.3d 561, 566 (6th Cir. 1998). “Where the claimant received
7

/4A

Case l:19-cv-00961-PLM-PJG ECF No. 4 filed 01/14/20 PagelD.37 Page 9 of 9

Should Plaintiff appeal this decision, the Court will assess the $505.00 appellate
filing fee pursuant to § 1915(b)(l ),seeMcGore, 114 F.3d at 610-11, unless Plaintiff is barred from
proceeding in forma pauperis, e.g., by the “three-strikes” rule of § 1915(g). If he is barred, he will
be required to pay the $505.00 appellate filing fee in one lump sum.
This is a dismissal as described by 28 U.S.C. § 1915(g).
A judgment consistent witlrthis opinion will be entered.

Dated:

January 14, 2020

/s/ Paul L. Maloney
Paul L. Maloney
United States District Judge

Cenm^3s a Tm® Co
By
*0

U EKSSL,-

a Dist of Si
Western
Date '

‘

fgan

JJiA-n-c

r.
!
;

9

UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

JOHN JOSEPH BARRERA,

)
)
)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff,

v.

MS. NEWSOME, Food Service Supervisor;
C/O BRAND, Corrections Sergeant, and,
M. OUELLETTE, Physician Assistant,
In their Individual Capacity,
Defendants.

Civil Action No.
Hon. _______
Mag._________

42 USC § 1983 CIVIL RIGHTS COMPLAINT AND JURY DEMAND
NOW COMES, John Joseph Barrera, and for his verified Complaint, pursuant to Title 42 USC §
1983; The Fourteenth Amendments to the US Constitution, and the Institutionalized Person's Act of
1963, submits his Complaint against Defendants on information and belief, and allege as follows:
I.

Introduction

This Civil Rights Action involves deprivations of Plaintiffs Fourteenth Amendment Rights to be
protected from harm while confined, and the deliberate indifference for the delay in providing
adequate pain medication following an assault from another prisoner. The matter in controversy
involves Defendants' failure to act when they had a duty to act, and failed to provide needed
medication following an attack.

Plaintiff seeks monetary damage awards for compensatory and

punitive damages in excess of Ten Thousand Dollars jointly and severally.
Defendants, in their individual capacities, act under the color of state law, while performing their
individual duties at the Lakeland Correctional Facility in Coldwater, Michigan 49036, under the
authority of the Michigan Department of Corrections - a State Agency.
1

m

II.; Jurisdiction
Jurisdiction is vested in this Court pursuant to Title 28 USC §§ 1331;1333; Title 42 USC §
1983. This Court is vested with subject matter jurisdiction on all claims arising under the Constitution
of the United States, its laws and treaties. Plaintiff invokes all pendent jurisdiction claims under state
law in conjunction with the violations of his constitutional rights under the US Constitution, or the
State Statutory Enactment of MCL § 19.142 -j prohibiting annoyance of a prisoner while confined.
HI. Parties
I
All parties involved in this action are associated with, the Michigan Department of Corrections.
Defendants are employees of the MDOC, orj contracted with the MDOC, while Plaintiff is prisoner
confined under the custody/supervision of the MDOC. Defendants perform their duties at the lakeland
i

Correctional Facility in Coldwater,' Michigan.

Plaintiff is confined at the Lakeland Correctional

!

Facility, in Coldwater, Michigan 49036. The parties can be addressed as listed below:
I

Plaintiffs:

Defendants:

John Joseph Barrera. #160094

Ms. Newsome, F.S.S.
Sgt. Brand,
M. Ouellette, P.A.
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

IV. Other 1983 Civil Rights Litigation
Plaintiff has not previously filed a complaint in this Court, or any other state or federal court,
which was dismissed, transferred, or reassigned after having been assigned to a judge. Plaintiff has not
submitted any other action under the PLRA , nor any other statutory provision allowing a prisoner to
submit a 42 USC § 1983 civil rights complaint and jury demand regarding the conditions of his
confinement. This is tire first time Plaintiff has litigated this claim in a court of law under the PLRA.
V. Exhaustion Renuiremenf
i

Plaintiff exhausted all his administrative remedies on the claims asserted in the body of his 42
USC § 1983 Complaint within the structure! of the Michigan Department of Corrections. Plaintiff
exhausted his remedies in grievance identifier jcode numbers LCF 19-06-0518-28B [Failure to Protect],
and LCF-19-06-0572-28e [Delay in Providing Pain Medication]. (Exhibits: A and B).
2

\U

VI.

Statement of Case

1. This is a civil rights action pursuant Title 42 USC § 1983, for Defendants’ failure to protect
Plaintiff from harm from another prisoner, as well as deliberate indifference to a serious medical need
following the attack. The matter in controversy is a deprivation of Plaintiff's Eighth and Fourteenth
Amendments, when Defendants deprived him of his right to be confined in a safe environment.
Defendants, collectively, deprived Plaintiff of his constitutional right to Equal Protection of the Law
under the Fourteenth Amendment, and subjected him to Cruel and/or Unusual Punishment under the
Eighth Amendment. Plaintiffs seeks monetary awards under the compensatory and punitive allowence
provision of 42 USC § 1983, and injunctive relief in this action.
2. Defendants are employees of the Michigan Department of Corrections. They perform their
duties under the color of state law. They are sued in their individual capacity for purposes of this
litigation. Plaintiff is a prisoner cared for under the supervision of the MDOC, its officers, agents, and
employees, including all those who are under contract with the MDOC..
VII. Statement of Facts
3. Plaintiff is currently confined at the Lakeland Correctional Facility in Coldwater, Michigan
49036. He is an elderly prisoner who has medical issues and he eats on the Chow Hall Diet Lines,
which is separate from the general population food serving meal lines.
4. On or about May 30, 2019, Plaintiff entered the Food Service Area for his diet line noon meal
which the facility authorizes by detail/call out, which is commonly referred to as [Early Diet Line Chow].
As he entered the food serving line to receive his designated diet tray of food, a White Inmate diet line
worker became very hostile toward him and started arguing. The serving line prisoner raised his voice so
loud that all other inmates stopped, looked and listened to the argument.
5. Plaintiff received his diet tray and proceeded to a table where he could eat his meal. Plaintiff
was so nerveous that he could not finish his meal so he got up to leave the chow hall after turning in his
diet tray. As he approached the exit doors, the White Prisoner left the serving lines and ran over and hit
Plaintiff in the back of the head where he fell to the floor unconscious and laid there for approximately
one minute, and he got up and left the chow hall area.

3

m

6. As Plaintiff exited the chow hall doors, Sgt. Bland and another officer came out and ordered
Plaintiff escorted to health care where he was taken to an outside hospital, where it was determined that
Plaintiff had a ''lump and swelling" on his head area where he had been stacked.
7. Defendant, Ms. Newsome, was incharge of the food serving diet line as the supervisor. She
witnesses the loud boisterous White Prisoner make threats to Plaintiff and did nothing to stop the
confrontation as the serving prisoner was under her immediate supervision.
8. Defendant, Sgt. Brand was the custody supervisor in charge of the chow hall on May 30,
2019, who overheard the threats from the assaulting White Prisoner, but did not intervein when the
prisoner became boisterous and loud to cause other prisoners to stop, look, and listen.
9. Plaintiff requested further medical treatment for his headaches and lump on his head on May
31; June 5, and June 11, 2019, but was denied by Defendant Margaret Ouellette, who told him that she
would not waste tax payer's money.
10. On August 6, 2019, Plaintiff was finally sent to Henry Ford Hospital in Jackson, Michigan
and a C.T. scan on his head was administered. Plaintiff was provided an EKG on October 3, 2019 and
pain medication was finally ordered for him.
11. Plaintiff complained that the medication was not working and Defendant Ouellette increased
the meds from 10 mg to 25 mg. Defendant Ouellette again told Plaintiff that she would not waste the tax
payers' money by sending him out for an MRI. She instead, increased the medication to 50 mg knowing
that Plaintiff's had a bad liver disorder at age 67.
12. Plaintiff submitted his grievances on both the assauly in the chow hall and the delay in
receiving medication for the pain in his head. Both were rejected at al lthree steps leaving him with no
avenue for complete exhaustion of his administrative remedies. [Exhibits A and B].
13. Defendants, collectively, owed a duty to Plaintiff to protect him from harm at the ahnds of
other prisoners and to provide him with adequate medical treatment while confined. Notably, the chow
hall area is fully equipt with cameras for monitoring prisoners while in the chow hall area, and has a Sgt.
desk foe supervisory monitoring. Defendants, Newsome and Brand deprived Plaintiff of his safety rights
when they ignored the White Prisoner's threats towards Plaintiff.
4

VIH.

Claims for Relief

14. Plaintiff incorporates herein by reference all paragraphs as set forth above, and claims relief
in an action at law from those facts which specifically sets forth a violation, under the Eighth and
Fourteenth Amendments of the United States Constitution, as well as relief under the state law mandate
that employees cannot annoy, discriminate, harass, ridicule, or mistreat prisoners while cared for by the
MDOC. Cf. MCL § 19.142.
Count-One
15. The acts and omissions of Defendants, Newsome and Brand as set forth above, by denying
Plaintiff protection from harm, after he was verbally threatened, constitutes a failure to protect creating
cruel and unusual punishment by subjecting him to an assault causing severe pain and suffering
actionable under the Eighth Amendment of the US Constitution.
Count-Two
16.

The acts of commission by Defendants Newsome and Brand by failing to properly

supervise the assaulting prisoner, or take charge of the security of Plaintiffjs well being while in their
supervised areas and allowed him to be brutally assaulted, constitutes deliberate indifference to Plaintiffs
safety actionable under the Fourteenth Amendment of the US Constitution.
Count-Three
17. The acts and omissions, coupled with the acts of commissions, as set forth above by
Defendant M. Ouellette when she failed on numerous occasions to provide pain medication to Plaintiff
after having been assaulted, constitutes a wilfull and wanton refusal to provide medical treatment by
delaying medication to combat the severe pain and suffering caused by the assault which is actionable
under the Eighth and Fourteenth Amendment of the US Constitution by the deliberate indifference she
displayed toward Plaintiff.
Count-Four
18. The acts and omissions, coupled with the acts of commissions by all Defendants as set forth
above, collectively, constitutes a denial of fundamental due process of law, equal protection of the law,
and a right to be free of cruel and unusual punishment by allowing the assault, had the authority to

5

prevent the assault, and after the assault, acted with deliberate indifference to a serious medical need by
withholding pain medication and telling Plaintiff money would not be wasted on his serious medical
needs, constitutes an immediate injury in fact actionable under the Fourteenth Amendment of the US
Constitution, depriving Plaintiff of his right to be treated equally under the laws of the United States
and the State of Michigan.
19.

The blatant acts and omissions, as well as the acts of commissions by

all

Defendants, collectively, constitute an injury in fact where Plaintiff is/was deprived of his right to be
placed in a safe environment while confined in the custody of the MDOC.
Immunities
20. Defendants, all of whom act and perform their duties under the color of law, have no
immunity to these counts as alleged in this complaint, as they acted in bad faith, and they did not rely on
any policy or procedure to prevent them from protecting Plaintiff from harm, or to provide adequate
medical treatment following an assault.

Nor is/was there any 'penalogical' interest in depriving Plaintiff

of his constitutional rights.
21. Defendants have no immunity, qualified, or otherwise as the law was clearly established that
their conduct was a deprivation of Plaintiffs constitutional rights which has been secured under the US
Constitutional safeguards of the Eighth and Fourteenth Amendments.
IX.

Proximate Cause of Harm

22. Plaintiff asserts that the acts, omissions, and the acts of commissions as set forth above by all
Defendants are the proximate cause of his harm and danages. Plaintiff has suffered severe pain and
suffering, and the loss of his valued constitutional rights by the callous disregards of the Defendants and
but for their willfull violation of the law, Plaintiff would not be suffering.
Plaintiff reserve his right to amend his complaint after complete exhaustion of any available
administrative remedies consistent with the PLRA and FRCP 15a, and Fed. Rule Civ. Proc. 23(a)(2).
X. Jury Demand
Plaintiff demands a trial by jury on all claims triable under the laws of the United States, and a
trial on those claims under any state law rights.
6

i

RELIEF REQUESTED
Plaintiff seeks relief in the following manner as to each Defendant listed in this complaint, jointly
and severally for:
a). A declaratory ruling that their individual acts and omissions, coupled with their acts of
commissions constitutes a denial of Plaintiffs Eighth and Fourteenth Amendment rights;
b). A monetary judgment award in excess of Ten Thousand Dollars [$10,000.00] as
compensatory for Plaintiffs harm;
c). Punitive damage awards in excess of Ten Thousand Dollars, jointly and severally, as a mode
of punishment for the willfull violation of the US Constitution, and;
d). Grant any such other relief, rewards, rulings that this Court deems just and proper for the
unlawful conduct as set forth above.
Submitted by,

0094
In Propria Persona
Lakeland Correctional Facility
141 First Street
Coldwater, Michigan 49036

Dated: November 5, 2019

Verification
I, John Joseph Barrera, do hereby verify under the penalty of perjury, that I have read the above
complaint and jury demand. That the same is true in all respects as to the statement of facts. That as to
Constitutional provisions, statutes, and all other legal concepts, I believe them to be true and hereby place
my reliance thereupon. FURTHER, I say not.

hfl.

Dated: November 5, 2019

ohn Joseph'Barfefa

7

<33#

